21 m.

®A
sj

In the Supreme Court of the United States
Supre

£x joarte Henryk S. Borecki, Petitioner

™cgsnir-

I

i

JUL 2 0 202I I
V.

United States Department of Homeland Security
&

Arizona Department of Transportation

On Petition for a Writ ofHabeas Corpus
to the Secretary ofHomeland Security and the Governor of Arizona

Petition for Writ of Habeas Corpus

Henryk S. Borecki
Pro Se
Susan DiFrancesco
Wife, Representative & Witness
16220 N. 7th St., #1374
Phoenix, Arizona 85022
602-942-2965

QUESTION PRESENTED
In addition to the questions presented in the companion
petitions for a writ of certiorari and a writ of mandamus, this
petition for a writ of habeas corpus sets forth as follows:
Notwithstanding any other provision of law, whether
the final and the conclusive determination of the right of a
United States citizen to his unfettered privilege of domestic
travel shall be determined by a comprehensive trial by a jury
of his peers, tested with the rules of evidence before an
impartial judge, and subject to a review for accuracy by the
Supreme Court of the United States?

1

TABLE OF AUTHORITIES
The same authorities, statutes and regulations set forth
in the companion petition for a writ of certiorari are
incorporated herein, with the following additions:
Cases
Collet v. Collet, 2 U.S. (Alexander Dallas) 294 (C.C.P.D. 1792)
Ex parte Bollman & Swartwout, 8 U.S. (4 William Cranch) 75 (1807)
Fong Yue Ting v. United States, 149 U.S. 698 (1893)
Gonzales v. Williams, 192 U.S. 1 (1904)
Hamdi v. Rumsfeld, 542 U.S. 507 (2004)
Boumediene v. Bush, 553 U.S. 723 (2008)
Legal Periodicals
Was the First Justice Harlan Anti-Chinese?, 36 W. New Eng.
L. Rev. 287, James W. Gordon (2014)
https://digitalcommons.law. wne.edu/cgi/viewcontent.cgi?referer=&httpsredir=l&
article=1290&context=facschol

2

Petition for Writ of Habeas Corpus
The petitioner, Henryk S. Borecki, respectfully presents
a supplemental petition for a writ of habeas corpus, directed
to the United States Secretary of Homeland Security,
currently Alejandro Mayorkas, and the Governor of Arizona,
currently Doug Ducey, to be evaluated and reviewed
concurrently with the underlying judgments of the United
States Court of Appeals for the Ninth Circuit and the District
Court of Arizona, numbered and dated respectively as Appeal
No. 21-15572, March 29, 2021, and Civil action No. CV2100415-PHX-MTL, March 10, 2021, inasmuch as this
petition shares a common nucleus of operative facts with the
companion petition for a writ of certiorari, for a review of
those proceedings, and is such as would be expected to be
reviewed during the same deliberative process.
Opinions Below
The orders of the court of appeals for the Ninth Circuit
and the district court of Arizona are not published, but are set
forth in the appendix to the companion petition for the writ of
certiorari. There are no written or published decisions by the
underlying administrative federal and state agencies.
Jurisdiction
The plaintiffs complaint was dismissed by the District
Court on March 22, 2021. The appellant’s appeal was

3

dismissed by the Ninth Circuit on April 14, 2021. The
petitioner’s request for a review of these decisions was
promptly filed within the time for relief and within the
jurisdiction provided by 28 U.S.C. 1254(1). Supplemental
jurisdiction of this petition for habeas corpus is provided by
28 U.S.C. 1651(a).
Statutory Provisions Involved
Reprints of the Real ID Act of 2005 and the original
False Claims Act are included in the appendix to the
companion petition for a writ of certiorari.
STATEMENT
In conformity with Rule 20.1, and in further
amplification of the reasons why supplemental relief is
appropriate, the petitioner would state as follows:
1. In aid of the Court’s appellate jurisdiction, the
supplemental writs, if prudentially warranted on the merits,
would immediately provide the relief prior to the upcoming
deadline, inasmuch as the deliberative processes of the
federal administrative agencies in charge — in the years
1955, 1962, and 2020 — are final and conclusive on the
petitioner’s identity and citizenship.
2. In addition to the circumstances specified in the
statement to the petition for mandamus in paragraph 2, the
present executive and administrative authorities are bound by
the maxim, Allegans Contraria Non Est Audiendus.
4

3. Within the ambit of the Clerk’s guidance, and
pursuant to Rules 10 and 14.1(h), for further edification of
the reader, the petitioner states the supporting argument as
follows:
The decisions of the court of appeals and the district
court, and the actions and non-actions of the Department of
the Homeland Security and the Arizona Department of
Transportation — in defiance and derogation of the
principles of Rule 10(c) — have ignored all the relevant
decisions of this Court on the most important purpose and
consideration of the Great Writ of Habeas Corpus, to wit,
the liberty of the individual citizen:
The historical record thus demonstrates that the touchstone for
access to the writ of habeas corpus has not been U.S. citizenship or
ties to the country, but rather whether the petitioner challenges
control of his person, including detention for the purposes of
transporting one out of the jurisdiction. That teaching endures:
“[A]bsent suspension, the writ. . . remains available to every
individual detained within the United States.” Hamdi v. Rumsfeld,
542 U.S. 507, 525 (2004)(plurality opinion)(emphasis added).
Noah A. Levine, Counsel of Record, Brief For Scholars
of the Law of Habeas Corpus as Amici Curiae, p. 11, DHS v.
Thuraissigiam, 591 U.S.
(No. 19-161)(2020).

5

Petitioner’s Answers under Declaration
to the Factual Questions on Form AO 242 (Rev. 09/17)
These are the petitioner’s answers, under declaration, to the factual
questions on Form AO 242:
1.

Henryk S. Borecki.
No other names have been used.

2.

United States of America and its States and Territories
16220 N. 7th St., #1374, Phoenix, Arizona
My identification numbers are:
04-14-53
YC 763040
CE 347897
A g gg4 934
8460198
8463026
A 3561818

c

SSN
-8360
SSN ■■■-■■-6740
IL B620-3375-3107
TX 05028048
AZ DO 1249522
TX 02657500
IL 3123794

3.

0 Federal authorities 0 State authorities 0 Other
Will not give REAL Travel ID to petitioner.

4.

0 Other (explain): [Apr 27, 2021. DHS]
“The deadline is now postponed until May 3, 2023.”

5.

Decision or Action You are Challenging:
0 The lack of REAL Travel ID — without a hearing
after
presenting all of the aforementioned identification numbers to
federal and state authorities.

6.

More information and detail:
January 16, 2020:
January 24, 2020:
December 14, 2020:
March 10, 2021:
March 22, 2021:
March 29, 2021:
April 14, 2021:

Interview at ADOT
Request for ADOT hearing
Request to DHS General Counsel
Civil action No. CV21-00415-PHX-MTL
“failure to state a claim for relief’
Appeal No. 21-15572
“dismissed for lack of jurisdiction”

6(d): Still no REAL Travel ID.

6

7.

Your Earlier Challenges of the Decision or Action:
Yes 0 Appeal

8.

Yes 0 Grievance Yes 0 Administrative

Did you file a second appeal to a higher authority, agency or court?
0 Yes

9.

Did you file a third appeal?
0 A fourth appeal: to this Court.

10.

0 No 28 U.S.C. 2255 motion

11.

0 No Immigration Proceedings

12.

0 No other appeals

13.

Grounds for Your Challenge in This Petition:
As a citizen of the United States of America, petitioner is entitled to
interstate domestic travel within the jurisdiction of this nation, just like
everyone else who has already obtained a REAL Travel ID.

14.

Any other grounds?
0 No

15.

State exactly what you want the court to do:
The same thing that petitioner requested in the first place on
January 16, 2020, from the administrative agency, to wit: issue Travel
ID. In addition, the petitioner requests the special damages delineated in
the complaint, and a published opinion by this Court, if warranted.
Declaration Under Penalty of Perjury

I, Henryk S. Borecki, declare under penalty of perjury, that I have read this
petition, and the information in this petition is true and correct. I understand that a
itiopsfor
false statement of a material fact may serve as the basis for,
perjury.
//
Henryk S. Borecki
Petitioner

Dated: September 17, 2021

7

